IN THE SUPREME COURT OF THE UNITED STATES

NO. 21
Marsha Josiah,
Petitioner, Respondent
v.
Robin E. Jackson,
Respondent, Petitioner

CERTIFICATE OF SERVICE

Denesia Bobo, for petitioner Robin E. Jackson hereby certify that on 19th day of
January 2021.1 caused one copy of the Petition for Robin E. Jackson to be served on the
following:

GARY R. WHITE, SBN 105324
1325 Howe Avenue, Suite 214
Sacramento, CA 95825
Tele: 916-925-6005
Fax: 916-924-6692
White@Burtonandwhite.com
Attorney for Respondent

I further certify that all parties required to be served have been served.

Denesia Bobo
2346 South Manor Drive
Sacramento, California 95822

